No. 20-1603

In the Supreme Court of the United States
___________

SUSAN BENNETT,

Petitioner,

v.
AMERICAN FEDERATION OF STATE, COUNTY, AND
MUNICIPAL EMPLOYEES, COUNCIL 31, AFL-CIO, ET AL.
Respondents.
___________
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

___________

BRIEF IN OPPOSITION
FOR STATE RESPONDENTS
___________

ALEX HEMMER
Deputy Solicitor General
FRANK H. BIESZCZAT
Assistant Attorney General
* Counsel of Record

KWAME RAOUL
Attorney General
State of Illinois
JANE ELINOR NOTZ*
Solicitor General
100 West Randolph St.
Chicago, Illinois 60601
(312) 814-5376
jane.notz@ilag.gov

1
STATEMENT
Petitioner Susan Bennett filed a two-count complaint against American Federation of State, County,
and Municipal Employees, Council 31, and AFSCME
Local 672 (“union respondents”); the Board of Education of Moline-Coal Valley School District No. 40
(“school district”); and Illinois Attorney General
Kwame Raoul and the members of the Illinois Educational Labor Relations Board (“state respondents”).
Dist. Ct. Doc. 1. Petitioner brought Count I against
union respondents and the school district only, alleging
that they violated her First Amendment rights by collecting union dues without her affirmative consent. Id.
at 7-9. She brought Count II against union respondents and state respondents, alleging that portions of
the Illinois Educational Labor Relations Act, which establishes a system of exclusive representation to regulate labor relations between public-sector educational
employers and employees, see 115 ILCS 5/1 et seq.,
were unconstitutional. Id. at 9-10.
State respondents filed a motion to dismiss Count II.
Dist. Ct. Doc. 14. Union respondents and the school
district filed a joint motion for summary judgment on
Counts I and II. Dist. Ct. Doc. 30. The district court
granted both motions and dismissed the action with
prejudice. Pet. App. 25-49.
The Seventh Circuit affirmed the judgment in favor
of union respondents and the school district on Count
I, holding that these respondents did not violate the
First Amendment by collecting union dues pursuant to
petitioner’s signed union membership agreement. Id.
at 9-16. It also affirmed the judgment in favor of all
defendants on Count II, concluding that the challenged

2
statutory provisions were constitutional under Minnesota State Board for Community Colleges v. Knight, 465
U.S. 271 (1984), and subsequent precedent. Id. at 1622.
ARGUMENT
In her petition for a writ of certiorari, petitioner asks
this Court to review only the part of the Seventh Circuit’s decision addressing Count I, which petitioner
brought against union respondents and the school district but not state respondents. Petitioner, in fact,
twice confirms that she is not seeking review of the
part of the decision regarding Count II, which upheld
the constitutionality of the challenged portions of the
Illinois Educational Labor Relations Act, 115 ILCS 5/1
et seq. See Pet. ii n.1 (“Petitioner does not appeal
Count II to this Court.”); id. at 7 n.2 (“Plaintiff has
chosen not to appeal the dismissal of Count II challenging exclusive representation to this Court.”). Petitioner has thus abandoned the claim she brought in
Count II, the only one against state respondents, and
that claim therefore provides no basis for granting certiorari.
Because petitioner is not seeking review of the Seventh Circuit’s disposition of her only claim against
state respondents, the petition for a writ of certiorari
should be denied as to them.

3
CONCLUSION
The petition for a writ of certiorari should be denied
as to state respondents.
Respectfully submitted,
KWAME RAOUL
Attorney General
State of Illinois
JANE ELINOR NOTZ*
Solicitor General
ALEX HEMMER
Deputy Solicitor General
FRANK H. BIESZCZAT
Assistant Attorney General
100 West Randolph Street
Chicago, Illinois 60601
(312) 814-5376
jane.notz@ilag.gov
SEPTEMBER 2021

* Counsel of Record

